                   September 28,1999

                   ROBERT DAVIS
                   VICE PRESIDENT, SOUTHEAST AREA OPERATIONS

                   SUBJECT: Allegation of a Physical Assault on an
                            Employee In a Southeast Area Carrier Unit
                            (Report Number LM-MA-99-010)

                   This is our advisory report on an allegation that a supervisor
                   at the Jackson, Mississippi Downtown Carrier Unit (in a
                   Southeast Area) physically assaulted an employee because
                   of race. The report also discusses our review of Jackson,
                   Mississippi management's compliance with United States
                   Postal Service (USPS) policies and procedures for
                   investigating and resolving the allegation.

                   United States Representative Bennie G. Thompson, Second
                   District, Mississippi, requested the review (Project Number
                   99ER007LR000). We were asked to review several issues,
                   including an allegation that an African American employee's
                   civil rights were violated when his Caucasian supervisor
                   physically assaulted him while on duty at a USPS facility.
                   This report responds, in part, to that request.

Results in Brief   We detemiined that the supervisor physically touched the
                   employee in an inappropriate manner, but we found no
                   evidence that the employee was physically assaulted.
                   However, the employee interpreted this inappropriate
                   touching as an assault and filed an assault charge against
                   the supervisor, who was arrested by the Jackson Police
                   Department. The case, however, was dismissed on
                   January 20,1999.

                   Jackson management followed the USPS published zero
                   tolerance policy regarding violence and inappropriate
                   behavior in the workplace. The supervisor who witnessed
                   the incident promptly reported it to the Inspection Service,
                   and an investigative report was provided to the Station
                   Manager.
Allegation of a Physical Aaaault on an Employee                                    LhArMA-f)Q-nin
 In a Southeast Area Carrier Unit


                                We suggest that the supervisor be instructed to limit his
                                physical contact with employees to that which is absolutely
                                necessary in the conduct of postal business.

 Objectives, Scope,             In a letter dated August 4,1998, United States
 and Methodology                Representative Bennie Thompson requested that we
                                conduct an investigation into allegations of physical
                                violence, racism, and discrimination made by minority
                                employees in Mississippi District post offices. The Office of
                                Inspector General (OIG) normally does not review individual
                                labor-management disputes, particularly when other formal
                                avenues of resolution exist, such as contractual grievance-
                                arbitration procedures and the Equal Employment
                                Opportunity process. However, we will undertake such
                                reviews when the allegations pertain to violence In the
                                workplace.

                                Our objectives were to determine if the employee had been
                                physically assaulted by his supervisor because of his race,
                                and whether the USPS responded to the incident in
                                accordance with established policies and procedures.

                                We interviewed the Mississippi District Human Resources
                                Manager, a Jackson, Mississippi Human Resource
                                Specialist, a Jackson Diversity Development Specialist, a
                                Jackson Postal Inspector, the USPS Headquarters Manager
                                of Affirmative Action, and a representative of the Jackson
                                Police Department.

                                 We reviewed various documents provided by
                                 Representative Thompson, the Mississippi District's Human
                                 Resources Manager, and the Diversity Development
                                 Specialist. The documents provided to us included the
                                 Inspection Service investigative report on the alleged
                                 physical assault against the employee.

                                 We also reviewed the USPS Joint Statement on Violence
                                 and Behavior in the Workplace. Threat Assessment Team
                                 Guide (Publication 108), Equal Emoiovment Opportunltv.
                                 Affirmative Action, and Dlversltv Policv Statement (Postal
                                 Bulletin 21893), and training materials obtained at a
                                 National Symposium on Workplace Violence.

                                 This review was conducted from December 1998 through
                                 August 1999 in accordance with the President's Council on
                                 Integrity and Efficiency, Quality Standards for Inspections.
Allegation of a Physical Assault on an Employee                                           LMrMA-99-010
 In a Southeast Area Carrier Unit




 Observations                         We concluded that the supervisor physically touched the
                                      employee in an Inappropriate manner, which the employee
                                      interpreted as a physical assault.

 Allegation of Physical               Wort<place violence awareness training provides that
 Assault Because of                   physical contact with individuals In the workplace setting is
 Race                                 inappropriate. It specifically states that to minimize violence
                                      in the workplace, a person's conduct should not Include any
                                      physical contact which can be perceived as threatening. It
                                      recommends that a distance of 2 to 4 feet be maintained
                                      when verbal communications take place.

                                      According to the Inspection Service report, the employee
                                      was casing his mall on the workroom floor of the Jackson,
                                      Mississippi Downtown Carrier Unit when his supervisor
                                      approached him. The report states that the supervisor
                                      began questioning the employee about why the emptoyee
                                      had put in for several hours of unauthorized overtime to
                                      complete the delivery of his route. The report Indicates that
                                      the employee did not acknowledge the presence of the
                                      supervisor and continued to case the mall. The employee
                                      told the Inspector that he was listening to the supervisor, but
                                      did not turn to face him. The employee said that after two to
                                      three minutes of being questioned by the supervisor, the
                                      supervisor "grabbed" him by the left shoulder and attempted
                                      to "spin" him around. The employee said that he believed
                                      the supervisor had assaulted him.

                                      According to the supervisor and a witness to the incident,'
                                      the supervisor "touched" the employee on the arm. The
                                      supervisor stated he touched the employee to get his
                                      attention because the employee did not respond to his
                                      questions, and did not turn to face him.

                                      The Inspection Service report states that the employee
                                      suffered no injury but did file an assault charge with the
                                      Jackson Police Department, which resulted in the arrest of
                                      the supervisor. The District's Human Resources Manager
                                      told us that the trial had been scheduled for January 1999.
                                      According to a representative with the Records Section,
                                      Jackson Police Department, the case was dismissed on
                                      January 20,1999.



' The witness Is also a supervisor.
Allegation of a Physical Assault on an Employee                                   L>^MA-99-010
 In a Southeast Area Carrier Unit


 Suggestion                     We suggest that the supervisor be instructed to limit his
                                physical contact with employees, to that which is absolutely
                                necessary In the conduct of postal business.

 Summary of                     The Southeast Area Vice President agreed with our
 Management's                   conclusion and the intent of our suggested action. The
 Comments                       supervisor involved in the incident is no longer employed by
                                the USPS, but violence awareness training will be provided
                                to supervisor staff in the Mississippi perfomnance cluster
                                during the current fiscal year.

 Evaluation of                  Management's actions are responsive to the Intent of our
 Management's                   suggestion.
 Comments
Allegation of a Physical Assault on an Employee                                                     LMrMA-99-010
 In a Southeast Area Carrier Unit




 USPS Response to                  The USPS followed established policies and procedures
 Alleged Physical                  regarding violence and inappropriate behavior in the
 Assault                           workplace.

                                   Specifically, the Joint Statement on Violence and Behavior
                                   in the Workplace states that the Postal Service will not
                                   tolerate violence or any threats of violence by anyone at any
                                   level of the Postal Service. In addition, the USPS Threat
                                   Assessment Team Guide (Publication 108), requires that
                                   when an incident occurs, notification be made to the Human
                                   Resources Manager, the Inspection Service, Senior Labor
                                   Relations Specialist, Employee and Workplace Intervention
                                   Analyst, Medical Director, District Manager, or Lead Plant
                                   Manager. The Guide further provides that the Human
                                    Resources Manager or designee will determine whether a
                                   meeting needs to be called or whether the situation may be
                                   addressed through other Threat Assessment Team
                                    members or ad hoc resources.

                                   In this case, the witness reported the Incident directly to the
                                   Inspection Service^ within 15 minutes of its occurrence.
                                   The inspection Service began Its investigation within 24
                                   hours of the incident, and provided a written report to the
                                   Station Manager 18 days later.

                                   The District's Human Resources Manager told us that
                                   USPS management also conducted an investigation;
                                   however, a written report was not prepared. He said that
                                   based on the information obtained during the USPS and
                                   Inspection Service investigations, USPS management
                                   concluded that a physical assault against the employee did
                                   not occur.

                                    We plan no further wori< on this allegation.




 ^ An Inspector frcim the inspection Service is a Situational Advisor to the Threat Assessment Team. Their
 responsibilities include conducting a formal tnvestigation and preparing an investigative memorandum and submitting
 It to postal management.
Allegation of a Physical Assault on an Employee                                LMVMA-99-01Q
 In a Southeast Area Carrier Unit


                                We appreciated the cooperation and courtesies provided by
                                your staff during the review. If you have any questions,
                                please contact me at (703) 248-2300.



                                Billy Sauls
                                Assistant Inspector General
                                  for Employee

                                cc: Clarence E. Lewis, Jr.
                                    Anthony J. Vegliante
                                    Yvonne D. Maguire
                                    Peter Captain
                                    Alan B. Kiel
                                    John R. Gunnels
Allegation of a Physical Assault on an Employee                                                                          LMrMA-99-010
 In a Southeast Area Carrier Unit




              0<» D>ini




        m    uMT£D Stares
             POSTAL SERVICe




              September 2 4 . 1999




             M F M O R A N D U M FOR: Mr, Billy SouU
                                      Auistuit Inspector General for Employee
                                      OrHcc of Inipectof Gpiien!
                                      1735 N. Lynn Street
                                      Arlingion. V A 12309-2020

             SUniECT                     Ptift Mtnttement Mvitory Repon. Altegfttion o( Phyiiul
                                         A i u u l i on Employee i i UK Jtckion, MJMJuippi, Downtown CUTIR Unit
                                         (Repgrt Number LM-MA-W-Dnfl)


             This is ttw nMiugemc^it RCpcnue lo the d n t t repon reBarding t n altcption of phycicat u u u t l on
             an employee • ! iltf Joekmn. f^issiisippi. Dmvninwn Ctnier Unii.

             Hiere i r e no pontons of the report, which wc tielicvc contiin proprieiiry infomuiiion or other
             business infonnation that may be ntempt fWun diiclnturc under the Freedom o f Infomution Act.

             ManagCRKnl agrees with (he conclusion thai no physical assault occuired in this Instance and
             agrees wilh the suggcsuon that the supervisor be instnicicd regarding inappnipoatc physical
             contact wilh employees. As a matter orretord, the superviaor involved in (his incident is no
             longer employed by the United Stales Postal Service. However, the suggestion has merit and
             w i l l be adopted within the Missiutppi District. Spedfieally, ihe M i u i u i p p i Pcrfonnance Cluster
             is scheduled to pronde Woriplaet yialenct Awireness Tnifnljij to all supervisory starT during
             the current flical year. The suggeilion will be implemented by including instruction on this issue
             with the ctlBbliihed c o u r u content.

              Thank you ror your observations and tuggeitions.




             Dob Davis


             cc: Anthony Vegliime. VP, Labor Relations, HQs
                 Yvonne Maguire, VP, Human Resources, HQs
                 Peto Captain, District Manager, Misiisiippl




               Un*-qTN3SiM'01CO

               t u sai 7J7 7«i




                                                                                                                             Appendix
Allegation of a Physical Assault on an Employee   LM-MA-99-010
 In a Southeast Area Carrier Unit




 Major Contributors to
 This Report
Allegation of a Physical Assault on an Employee                                   LMrMA-d9-010
 In a Southeast Area Carrier Unit


                                         Report Synopsis
                                          GENERAL INFORMATrON

REPORT NUMBER:                       LM-MA-99-010           REPORT DATE:

                           Allegation of a Physical Assault on an Employee in a Southeast
REPORT TITLE:                           Area Carrier Unit




EVALUATOR-IN-CHARGE:                       Chris Nicoloff        DIRECTOR:   Chris Nlcoloff

                                           FINDINGS/OBSERVATION

NUMBER OF FINDING/OBSERVATIONS:
N O N C U R R E N C E S : Ugmt did not agree.               NA
(Indicate finding/observation headings and numbers)
         1.
         2.
         3.
         4.

                                  RECOMMENDATIONS/SUGGESTIONS

NUMBER OF RECOMMENDATION/SUGGESTIONS:                               1
N O N C U R R E N C E S : Ugmt did not agree                        NA
[tndicate rscommendation/suggeition headings and numbers]
          1.
         2.
          3.
         4.

NUMBER OF CORRECTIVE ACTIONS TAKEN DURING AUDIT:                                 NA
TOTAL FUNDS PUT TO BETTER USE:                                                   NA
TOTAL QUESTIONED COST:                                                           NA
Allegation of a Physical Assault on an Employee                              LMrMA-9g-010
 In a Southeast Area Carrier Unit


UNSUPPORTED COST INCLUDED IN QUESTIONED COST:                              NA

Report Summary:
Allegation of a Physical Assault on an Employee at the Jackson, Mississippi
Downtown Carrier Unit, LR-MA-99-XXX, Date Issued

This allegation was received In correspondence provided to us by United States
Representative Bennie G. Thompson, Second District, Mississippi.

We determined that the employee was not physically assaulted. We verified, however,
that the supervisor did physically touch the employee in a manner that the employee
interpreted as an assault.

Because we determined that the employee's civil rights had not been violated as a
result of a physical assault, it was not necessary for us to determine if the USPS was an
accomplice to a violation. However, we did determine that the USPS followed it's zero
tolerance policy regarding violence and inappropriate behavior in the worl<place, when
the supervisor who witnessed the incident, promptly reported It to the Inspection
Service.

This report contains one suggestlonthat require a response from management.
(Project Number 99-ER-007-LR-000).
